WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7858

 

Michael Armendariz

Leon Martinez, Warden, et al.

 

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Jam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
e will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

(Type or print) Name Jane A. Bernstein

  

Signature:

Date: 4/28/21 7

 

  

° Mr oO Ms. —_ Oo Mrs. : Oo Miss 7

Firm New Mexico Office of the Attorney General

 

Address 201 Third St. NW, Suite 300

 

City & State Albuquerque, NM Zip 87102

Phone 505-717-3500 Email jbernstein@nmag.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Michael Armendariz a ao ——
ce:
